20-7115

No!

Bj
d to

IN THE
SUPREME COURT OF THE UNITED STATES

— PETITIONER
(Your Name)

Adfofl M&rdeh .

.

vs.

Menard (bftem&d Center

FmtviK

A 4l,

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

FILED
NOV 1 S 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S.

UrtfW.flbfes 6)uri'6pA/y^k'

Qrotlf

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

(Your Name)

.

(

,

Uiemrd fionodtanal tem'et
PA icu \(Ob
(Address)

feiard ij J rWs U&f\
(City, State, Zip Code)

(Phone Number)

RECEIVED
FEB - 9 2021
•FFICE OF THE CLERK
SUPREME COURT, U.S.

•>

QUESTION(S) PRESENTED

1 .

Whether the Seventh Circuit ruling which is in conflict with
the United States Supreme Court, the Seventh Circuit, other
circuits, is debatable and was the adjudication of the
Seventh Circuit and District Courts proper Certificate of
Appealability analyses?

2.

The courts exist to resolve the difficult questions not to
shy away from them.

Some court cases, due to the nature of

the case or charges alleged, are rather likely to experience
unfavorable or unfair treatment without regard to validity
of claims raised.

Taken cumulatively and in the aggregate,

especially pertaining to the issues raised in this case,
whether the Seventh Circuit and District Court rulings were
unreasonable and improper.

Also whether Petitioner was

denied Due Process, Equal Protection and Comity rights of the
United States Constitution?

i

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
[ ^ All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
Anthony Wills, current Warden of Menard Correctional Center
U.S. Attorney, Assistant Attorney General, Katherine Doersch

RELATED CASES
Carter v. Lawrence, No.1:19-cv-02735,U.S. District Court,Northern
District, Eastern Division, decided 27 August, 2019
People v. Carter, 2-15-0654, Second District Appellate Court of
Illinois, decided 22 May, 2018
People v. Carter, 2-16-0382, Second District Appellate Court of
Illinois, decided 5 June, 2018
People v. Carter, 08 CF 1221, Circuit Court of DuPage County,18th
Judicial Circuit, Summary judgment, 5 May, 2014 (C0001083)
People v. Carter, 08 CF 1221, Circuit Court of DuPage County,18th
Judicial Circuit, Summary judgment, 11 May, 2016 (C0001417)
People v. Carter, No.123878, Illinois Supreme Court, judgment
affirmed, review declined 26 September, 2018
People v. Carter, No. 123779, Illinois Supreme Court, judgment
affirmed, review declined 26 September, 2018

ii

•JL

TABLE OF AUTHORITIES CITED
PAGE NUMBER

CASES
Listed in separate Volume I Appendix
(Table of Authorities Cited)

STATUTES AND RULES
28 United States Code § 1254(i)
28 United States Code § 1257(a)
28 United States Code § 2244
28 United States Code § 2253
28 United States Code § 2254
Federal Rules of Appellate Procedure 59(e)
Federal Rules of Civil Procedure Rule 60(b)
12 Rules Governing Section § 2254 Petitions Rule 5(d)
725 Illinois Compiled Statutes 5/122 et.seq.
Illinois Supreme Court Rules 341,342
Illinois Supreme Court Rule 651(c)

OTHER

r

/ l l

CASES
Ake v. Oklahoma, 470 U.S. 68 (1985)

1 6,20

Anderson v. Page, 61 F.Supp. 2d 770 (7thCir.1999)

20

Andrus v. Texas, 590 U.S.

29

(2020)

U.S. v. Boyd, No.98-2035 to 98-2038and 98-2060 (7thCir.2000) 19,22,23,28
Brady v. Maryland, 373 U.S. 83 (1963)

20

Buck v. Davis, 580 U.S.__ ,137 S.Ct.759,197L.Ed.2d 1(2017)

11,12,29

Clinkscale v. Carter, 375 F.3d 430,442 (6thCir.2004)

10
8

Clisby v. Jones, 960 F.2d 925,936 (11thCir.1992)
Coleman v. Thompson, 501 U.S. 722 (1991)

10

Ege v. Yukins, No. 05-2078 (6thCir.2007)

14,15,19,27,29

Frye v. United States, 293 F. 1013 (D.C.Cir.1923)

13,23

Haines v. Kerner, 404 U.S. 519,520-551 (1972)

8

Harris v. Reed, 489 U.S. 255,257-59,266 (1989)

9

Hudson v. Hardy, 412 F.2d 1091,1092-94 (D.C.Cir.1968)

8

Johnson v. Thurmer, 624 F.3d 786 2010 U.S.App.LEXIS 21443(7thCir)

11

Lambright v. Stewart, 220 F.3d 1022 (9thCir.2000)

12

Larson v. Soto, 742 F. 3d 1083 (9th Cir.2013)

24

Liao v. Junious, 817 F.3d 678 (9th Cir.2016)

20,24,29

Long v. Butler, No. 13-3327 (7th Cir.2015)

11

Mitchell, 972 N.E. 2d 1153,1160(IL App.Dist.1 2012,p.1160fl37)

11

U.S. ex Rel.Morgan v. Gilmore,26 F.Supp.2d 1035(7thCir.1998)

10

Napue v. Illinois, 360 U.S. 264 (1959)
Neal v. Gramley, 99 F.3d 841,843-44 (7thCir.1996)
Osborne v. Shillinger, 861 F.2d 612 (1OthCir.1988)

25,27
10
20,21,24

CASES

Petrocelli v. Angelone, 248 F.3d 877 (9th Cir.2001)
Richey v. Bradshaw, 498 F.3d 344 (6th Cir.2007)
Riley v. Taylor, 277 F.3d 261,273-275 (3rd Cir.2001)
Robertson v. Hanks, 140 F.3d 707,709 (7th Cir.1998)

12,30
14,15,19,27,29
10
9,10

Sanders v. Cotton, 398 F.3d 572,579-580 (7th Cir.2005)

10

Slack v. McDaniel, 529 U.S. 473483 (2000)

12

Strickland v. Washington, 466 U.S. 668 (1984)
Turley v. Lawrence, Mo.3.08 cv 0007 (7th Cir.2019)

20,23,29
8

Valerio v. Crawford, 306 F.3d 742,767,768 (9th Cir.2002)

12

White v. Ragan, 324 U.S. 760 (1945)

25

Wills v. Aiken, 8 F.3d 556,563-64 (7th Cir.1993)

10

*■ ♦ °r

■1 ! f

TABLE OF CITED AUTHORITIES
Statutes and Rules
28 United States Code § 2253

6

28 United States Code § 2254

9, 18

Federal Rule of Appellate Procedure 59

8

Federal Rule of Civil Procedure 60

8

Possible Issues for Review in Criminal Appeals

9

12 Rules Governing Section § 2254 Petitions,Rule 5(e)

5, 7

410 Illinois Compiled Statutes 325/9(c)

25

725 Illinois Compiled Statutes 5/122 et.seq.
Illinois Supreme Court Rule 341
Illinois Supreme Court Rules of Ethics, Article V111,
Rule 3.1,[1 ] [2]

9
21

UNITED STATES CONSTITUTIONAL AMENDMENT I: "Congress shall make no
law respecting an establishment of religion, or prohibiting the
free exercise thereof; or abridging the freedom of speech, or of
the press; or of the right of the people to.peaceably assemble,
and to petition the Government for a redress of grievances."
P- 8,29
UNITED STATES CONSTITUTIONAL AMENDMENT V: "No person shall be
held to answer for a capital or otherwise infamous crime, unless
on a presentment or indictment of a Grand Jury, except in cases
arising in the land or naval forces, or in the Militia, when in
actual time of War or public danger; nor shall any person be
subject for the same offence to be twice put in jeopardy of life
or limb; nor shall be compelled in any criminal case to be a
witness against himself; nor be deprived of life, liberty, or
property, without due process of law; nor shall private property
be taken for public use without just compensation."
P- 8,18,20,21,24,25,26,28,29,32

I t *

I :l l

UNITED STATES CONSTITUTIONAL AMENDMENT VI: "In all criminal
prosecutions, the accused shall enjoy the right to a speedy and
public trial, by an impartial jury of the State and district
wherein the crime shall have been committed, which district shall
have been previously ascertained by law, and to be informed of
the nature and cause of the accusation; to be confronted with the
witnesses against him; to have compulsory process for obtaining
witnesses in his favor, and to have the Assistance of Counsel for
p.8,11,14,15,16,17,18,20,21,24,25,26,28,29,32
his defence."
UNITED STATES CONSTITUTIONAL AMENDMENT XIV Section 1 : All persons
born or naturalized in the United States, and subject to the ju­
risdiction thereof, are citizens of the United States and of the
State wherein they reside. No State shall make or enforce any law
which shall abridge the privileges and immunities of the United
States; nor shall any State deprive any person of life, liberty,
or property, without due process of law; nor deny to any person
within its jurisdiction the equal protection of the laws."
p.8,15,18,20,21,24,25,26,28,29,32

UNITED STATES CONSTITUTION Article IV,Section2,Clause 1:
"The Citizens of each State shall be entitled to all Privileges
and immunities of Citizens in the several States."(Comity Clause)
p.8,20,24
UNITED STATES CONSTITUTION Article VI: "This Constitution, and
the Laws of the United States, which shall be made in Pursuance
thereof; and all Treaties made, or shall be made, under the
Authority of the United States, shall be supreme Law of the Land;
and the Judges .in every State shall be bound thereby; anything in
the Constitution or Laws of any State to the Contrary notwith­
standing. "
p.7,8,19,24,28,29

; < ’
it !

i

k

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

4-

■i'i

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

7

3*\

CONCLUSION

INDEX TO APPENDICES
United States Court of Appeals for the
APPENDIX A Seventh Circuit Certificate of Appealability Denial July 1, 2020 19-2856

A 1

United States District Court, Northern
APPENDIX B District,
Eastern Division Habeas Denial
and In Forma Pauperis Denial August 27,
201 9 19 C 2735
APPENDIX C
United States Court of Appeals for the
Seventh Circuit Rehearing Denied/En Banc
Hearing Denied September 2, 2020 19-2856

B 1

APPENDIX D

APPENDIX E

C 1

Appellate Court of Illinois, Second Dis­
trict Postconviction Successive Petitions,
Motion for Leave to File Opinions June 5,
2018 (2-16-0382) and May 22, 2018 (2-15-0654)

D 2

Supreme Court of Illinois Postconviction
and Successive Petition for Leave to Appeal
September 26, 2018 (123779) and September
26, 2018 (123878)

E 1
E 2

Circuit Court of the 18th Judicial Circuit
Memorandum Opinion May 5, 2014 (C0001083)
and May 11, 2016 (C0001417)

E 3
E 4

APPENDIX A - E

i

D 1

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[x] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix A
the petition and is
[ ] reported at
; or,
has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

B

[ ] reported at
5 or,
has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[x] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_d__ to the petition and is
reported at 108 N.E. 3d 879(111.2018)
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the Eighteenth Judicial District ^DuPag^ouyt,
appears at Appendix _E__ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
is unpublished.
1.

to

to

JURISDICTION

[xl For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was —1 July-,—-2-0-2-Q______
[ ] No petition for rehearing was timely filed in my case.
[x| A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ..2 September 2020__ , and a copy of the
order denying rehearing appears at Appendix C_____
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[xl For cases from state courts:
The date on which the highest state court decided my case was26Sept. 2018 .
A copy of that decision appears at Appendix JD_*_E___
[ ] A timely petition for rehearing was thereafter denied on the following date:
_____________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

7
oL.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
FULL TEXT IN VOLUME 1 APPENDIX
UNITED STATES CONSTITUTIONAL AMENDMENT .1
UNITED STATES CONSTITUTIONAL AMENDMENT V
UNITED STATES CONSTITUTIONAL AMENDMENT V1
UNITED STATES CONSTITUTIONAL AMENDMENT XIV
UNITED STATES CONSTITUTION ARTICLE 1V, Section 2, Clause 1
UNITED STATES CONSTITUTION ARTICLE V1

28 United States Code § 2253
28 United States Code § 2254
725 Illinois Compiled Statutes 5/122 et.seq.

3

*

<*J'

STATEMENT OF THE CASE

STATEMENT OF THE CASE

V

This is a difficult case that has been infected with and by-

prejudice and indifference since the false allegations were first
lodged. In addition was misinformation of girls

mother's death,

which was 1 yr.10mo. after their arrival in Illinois. This infor­
mation has never been corrected, to this day. The first trial re­
sulted in a mistrial at the close of the State's case-in-chief.
(2010)

Failure of private counsel to obtain a HSV-2 Expert wit­

ness was determined a critical element of defense and trial judge
ended trial for IAC. (29 October,2010 R.1760-1777).

Second trial

took place in 2012, with assistant public defender, Brian Jacobs.
He also failed to call any independent expert in field of HSV-2,
failed to use evidence from five banker boxes, failed to call any
witnesses from a list provided to him dated June 13, 2011, over a
year before trial and failed to utilize the three experts retained
by defense. Petitioner was convicted and sentenced to natural life.
On Direct Appeal, appellate counsel produced an unfavorable brief
3 February, 2014, mailed a copy to petitioner 5 February, 2014
which was received 10 February, 2014, with no opportunity for in­
put prior to submission.
fl2

Relevant dates: Direct Appeal Affirmed 22 August,2014; Motion

to Rehear Denied 30 October,2014; P.L.A. of Direct Appeal Denied
30 January,2015; Postconviction Petition Denied 5 May,2015; Leave
to File Successive Petition Denied 11 May,2016; Appellate Court
Denial and Affirmance of Postconviction Petition 22 May,2018; Motion for Leave to File Denial and Affirmance 5 June,2018; Both
P.C. Petition and P.L.A and Successive Leave to File and its P.L.A.
declined by Illinois Supreme Court 26 September,2018. The Habeas
Corpus Petition was timely filed on 23 April,2019. The State was
ordered to ANSWER THE Section § 2254 Petition. After many months

4

STATEMENT OF THE CASE
512

of silence, Petitioner asked his Mother, Mrs. P. Nofles, to

contact the Clerk of U.S. District Court for status of Habeas Pe­
tition. (Appendix B- Affidavits and detail of notification issues
sent to U.S. District Court, Chief Judge and Clerk by Priority
Mail, Tracking Nos.#9510-8103-6688-9238-2083-33; 9505-5103-66879247-2211-54; 9505-5103-6687-9247-2211-61).

The call was made on

26 August,2019. The Clerk was made aware that NOTICE TO REPLY that
they spoke of had never been received. Clerk was also made aware
that Petitioner was sending that day, a Motion requesting qnore
time to file a Reply to State's ANSWER.
513

Petitioner mailed out request on 26 August,2019, this was re­

ceived and filed by Clerk 3 September,2019. The Motion for Exten­
sion of Time to File a Reply to State's ANSWER, was granted, allow­
ing until 27 September,2019, as a deadline to file any response.
Petitioner met the deadline, with Priority Mail and signature con­
firmation 26 September,2019, at 7:39am at U.S. District Court,
Northern District, Eastern Division, signed for by D.Joswisk. How­
ever, the Court closed or denied the Habeas Petition the day after
being notified that Petitioner lacked notification, that a motion
was on its way, and after having received Motion and granted the
extension, it further closed the case and filed a NOA on 27 Sep­
tember, 2019.
514

The U.S. District Court did not review the Reply and its

materials sent in support. Instead, it rushed to close the case,
a day before the last day of the deadline of 27 September,2019.
The District filed an NOA and sent a notice stating that it
"lacked jurisdiction." (Dkt.#[24J) Time to Reply is controlled
pursuant to "12 Rules Governing Section §2254 Petitions Rule 5(e)"
by the judge.

Jurisdiction.

5

STATEMENT OF THE CASE
U5

Seventh Circuit received case and denied C.O.A.S stating it

"found no substantial showing of the denial of a constitutional
right. See 28 U.S.C. §2253(c)(2)."

In Forma Pauperis and appoint­

ment of counsel were also denied, 1 July,2020. U.S. District
Court's Opinion of 27 August,2019, demonstrates that, in fact,
court observed the substantial denials of constitutional rights
raised in Habeas Petition. On 17 July, 2020, Circuit Court re­
ceived Motion for Extension of Time to Rehear/Rehear EnBanc from
Mr. Carter. Granted until 17 August, 2020. On 2 September, 2020,
the Court denied Motion to Rehear/Rehear EnBanc. (Appendix C).
II6

U.S. District Court in its Opinion of 27 August, 2019,

Dkt.[#10], the only opinion that has been received by Mr. Carter
from the court, states in J[3 the substantial constitutional viola­
tions of rights and then at 5110 proceeds to contradict this say­
ing there is no showing and that no reasonable jurist would find
this decision debatable. The remainder of Opinions of the courts
had not been sent to Mr. Carter, he has had to resort to asking
Mrs. Nofles to obtain them for him, as he would receive notices
with the ruling or opinion missing. Mr. Carter contacted Court
twice regarding lost ruling, each time court took action without
an opinion being sent to Mr. Carter.
H7

Proper calculation of times to file is not possible without

the Opinion and date of judgment. Courts have been acting with
malice that is serving to disadvantage Mr. Carter and impede his
efforts to obtain enforcement of his rights.

6

c*

«l

REASONS FOR GRANTING THE PETITION

REASONS FOR GRANTING THE PETITION

H8

The United States Constitution is the supreme Law of the Land

and adherence to it keeps the thread and fabric of society from
unraveling. The United States Constitution applies not just to
citizens, but also government bodies and all its members including
courts, judges, police and janitors. (U.S. Const. Art.VI,Cl.2).

119

Care has been taken to demonstrate timeliness that this Court

appears to assign as the first hurdle. Mr. Carter has experienced
unusual malice and prejudice at the hands of government employees
at the state and lower courts of the federal system to the degree
that without the assistance and intervention of his Mother, Mrs.P,
Nofles, impediments strewn in his path would make time calculation
or getting to this point impossible. Disregard of the U.S. Con­
stitution and its protections brings Petitioner before the U.S.
Supreme Court.

1110

Mr. Carter filed his Habeas Corpus Petition through use of

Priority Mail to U.S. District Court in Chicago on April 23, 2019
The State was ordered to ANSWER. The "12 Rules Governing §Section
2254 Petitions", states "that the Petitioner may Reply to the
State's ANSWER in a time fixed by the judge." (Rule 5e).

After

the passage of many months and no notice or word from the court,
Mr. Carter asked his Mother on 26 August,2019, to call the Clerk
for a status update. Mrs. Nofles called and was told that a no­
tice had been sent. Mr. Carter immediately drafted a Motion to
Extend Time to Reply to State's ANSWER. Motion sent out 26August,
2019 and Clerk was notified by Mrs. Nofles, of the same. Affidavit
and accompanying supporting documentation of personnel of Menard
Mail Room showing legal mail had not been received sent on 4September,2019. Rather than accommodate this difficulty, the case

7

REASONS FOR GRANTING THE PETITION

511 0

was immediately closed, Habeas Petition denied 27 August,

2019. U.S. District Court in its Opinion made references to its
perceived failure of Mr. Carter to Reply to state's ANSWER.
(Appendix B, Dkt.[#10] 516,9, footnote 1). U.S. District Court
granted extension of time, but upon receipt of Reply, court
closed out case, a day before the last day of deadline, less than
24 hours, and sent Mr. Carter a notice saying the court lacked
jurisdiction over matter. U.S. District Court turned Reply into a
F.R.A.P.Rule 59(e)/F,r.c.P.60(b) motion, which still gave court
12 months to address motion despite having extended time to Reply
to ANSWER. Does the 28 days, the judge's extension, or the 12
months of 60(b) control? No matter which, the claim of lack of ju­
risdiction, is it error? (Turley v. Lawrence,No.3.08cv0007(7th
Cir.201 9) (Haines v. Kerner, 404U. S. 51 9,520-551 (1 972 ) (Hudson v.Har-»
dy,412F.2d 1091,1092-94(D.C.Cir.1968).
5111

The second hurdle that appears to be de rigueur is proce^-.

dural. This issue was covered in Reply to state's ANSWER, which
appears to have been disregarded. There was no procedural de­
fault. Mr. Carter, a pro se litigant with no formal legal educa­
tion, presents 55 issues grouped into main areas of a constitu­
tional magnitude and dimension: ineffective assistance of coun­
sel and appellate counsel(IAC),(IAAC); due process denials;first
amendment violations; equal protection violations. These rights
violations invoke the U.S. Constitutions Amendments 1,V,V1,X1V,
and Articles 1V and V1. (Appendix Table of Cited Authorities).
(Clisby v. Jones,960 F.2d 925,936(11thCir.1992). The U.S.District
Court in its Opinion, mentions forfeiture of issues and then
acknowledges the state appellate court made alternative ruling on
the merits. (Appendix B, Dkt.[#10]p.1fi3). U.S. District Court

8

REASONS FOR GRANTING THE PETITION

5111

used language regarding issues again raised in Successive

Petition(2160382), as "preclusion", when actually the state's ver­
batim word usage was "res judicata." (Appendix D1(0382)).

State

appellate court each time ruled in the alternative, reaching the
merits of 2-15-0654 and 2-16-0382, respectively (0654) and (0382).
IL appellate court, in 0654, after citing IL.S.Ct.Rule341(h)(6)
discrepancies, stated that they chose not to strike Brief, as the
lapses were not so egregious as to hinder their review. (Appendix
D2(0654)p.4).

Citations to the record were made using day/month/

year format due to lack of computer and access to county's soft­
ware and system. Use of numbering system to cite is impossible.
Not just (h)(6), nowhere in the entire IL.S.Ct.Rule 341 is there
prescription for the length of arguments nor shortness of State­
ment of Facts, it does state to present the information necessary
to understand the case.
5112

This was done.

This comprehensive rule also states page extensions are dis­

favored. The 50 page limit for Briefs was considered with compet­
ing rule of Habeas Corpus proceedings, where all possible issues
for relief must be raised in the first instance. IL appellate
court made merits determinations in both the initial and success
sive filings, and those findings were contrary and unreasonable
determinations of law and facts. (28 U.S.C.§2254(d).
5113

The Seventh Circuit's procedural default finding conflicts

with IL appellate court, the Seventh Circuit's prior rulings, and
other circuits.(Possible Issues for Review in Criminal Appeals
Manual,p.50) states,"[w]here a state finds a petitioner has
waived an issue for review but proceeds to rule on the
merits anyway, the issue is not procedurally defaulted
for Habeas purposes.
(Robertson v. Hanks,(140 F.3d
707,709(7th Cir.1998)."
(Harris v. Reed,489 U.S.255(1989) at 256 says judgment has to rest
on state procedural bar. IL appellate court clearly setting for-

9

REASONS FOR GRANTING THE PETITION
I113

feiture aside and ruling in alternative is not resting. In

Coleman, although distinguished from Harris and this instant case
it does discuss state ground point stating, "[t]hat no such ground
exists if the decision of the last court which petitioner pre­
sented his federal claims fairly appeared to rest primarily on re solution of those claims, or to be interwoven with those claims."
(Coleman v. Thompson,501 U.S.722,723(b)(1991)). Each time this
issue has come up the circuits have found where there is indica-rtion of the merits being reached, there was no procedural default .
In fact, this is precisely the Seventh Circuit's determination in
Morgan. "[T]he Illinois appellate court found that his request
for postconviction relief was procedurally barred. Yet, it
reached the merits in the alternative. The state court's
decisions to reach the merits means that this court, can
review that decision under the standards set forth in the
AEDPA, as this court will not rely on state court proce­
dural default if the state court declined to do so."
(U.S.exRel.Morgan v. Gilmore,26F.Supp2d 1035,7thCir1998).
H1 4

In Robertson the determination on this issue is nearly identical. "[HJowever, no procedural default occurs if the state
appellate courts' alternative finding constituted a finding
on the merits. See Harris & Coleman [citations omitted].
The state appellate court in this case reached the merits.
See (Neal v. Gramley,99F.3d 841,843-44(7thCir.1996);
(Wills v. Aiken,8F.3d 556,563-64(7thCir.1993)."
(Robertson v. Hanks,140 F.3d707,709 1998U.S.App.LEXIS 6302.
7th Cir.)
In another of its decisions, the Seventh Circuit made clear that
plenary review was appropriate when the state court has reached
the merits of issue(s). (Sanders v. Cotton,398 F.3d 572,579-580
(7th Cir.2005)). Where state court's reliance on procedural bar
was not sufficiently explicit to bar review because reference to
procedural issue was immediately followed by consideration of the
merits of the ground for relief. (Clinkscale v. Carter,375 F.3d
430,442(6thCir.2004); (Riley v. Taylor,277 F.3d261,273-275(3rd
Cir.2001). The Long case is a perfect case to segue into con10

REASONS FOR GRANTING THE PETITION
1114 trary to and reasonableness after covering its similar handling of the same conditions. (Long v. Butler,No.13-3327, (2015 7th
Cir.)).
fl15

In Long,'.'. Illinois appellate court squarely considered the
factual legal basis of this claim. We find, therefore,
that Long's due process claim is not procedurally de­
faulted and consider its merits."

Additionally, adequate and independent grounds, must be consis­
tently applied, if they are applied in an unprincipled, or incon­
sistent manner, is inadequate and will not preclude federal habeas review. (Johnson v. Thurmer,624 F.3d786 2010 U.S.App.LEXIS
21443,7th Cir.). In Mitchell, a licensed attorney failed to in­
clude a table of contents and page numbers and references to brief.
State appellate court chose to overlook and decided to reach mer^
its. Mitchell,972 N.E.2d 1153,1160(Illinois App.Dist.1 2012p.1160
fl37)) . Res Judicata, according to "Black's Law Dictionary," has
as its second of three essential elements, is "..[a3 final judg­
ment on the merits." (Black's Law Dictionary Fifth Edition). The
Seventh Circuit and District court's procedural determinations
could and have been resolved in a different manner and therefore,
are debatable. According to Buck Standard, C.CKA.s should issue
to all 55 areas, IAC and multiple due process violations. (Buck
v. Davis,580U.S.__ ,137S.Ct.759,1 97L.Ed.2d1 (2017)) .

IP 6

The issues contained in the Habeas Petition would show in a

full, reasonable analysis that Mr. Carter's constitutional rights
were violated. That he was not afforded a fair trial, nor did he
have effective, conflict-free counsel that was cooperative, coun­
sel did not present valuable evidence for his defense, counsel
had Character Reference List for over a year with no one contacted,
he was not allowed to present favorable witnesses/experts via the
Compulsory Clause of the U.S. Constitution's V1 Amendment. Due
Process had been denied this entire process.

11

REASONS FOR GRANTING THE PETITION

511 7

The Seventh Circuit's finding of no substantial denial of

a constitutional right is contrary to and an unreasonable deter­
mination of, facts and law in light of the record before the
court. The lower courts make no mention of the "facial allegation
test" of Lambright, Petrocelli, Valerio, but the results are seen
in naming constitutional violations raised in Opinion. The Sev­
enth Circuit and District courts erred by fundamentally misinter­
preting and relying on Slack, a case that does not address consti­
tutional component tests' mechanics. The Lambright-PetrocelliValerio rule calls for or mandates taking a quick look at petition
to see what it facially alleges, a search for violations of consti­
tutional rights. The second part of the rule the courts' analyses
fails to adhere to, which is to take the petition's allegations
as true. Instead the courts must have focused on or considered
contrary evidence, which is not part of two-part C.O.A. analysis
test in Buck. (Buck id.at fl15); (Lambright v. Stewart,220F.3d1022
(9thCir.2000)); (Petrocelli v. Angelone,248

F.3d877(9thCir2001)
(Valerio v. Crawford,306F.3d742(9thCir.2002)). Both the Circuit
and District courts erred and exceeded mandate of C.O.A. analysis
issued by this Court.

511 8

The—Seventh Circuit and Distrrct~courts opine that no juris'tTs
of reason would rule differently, that is debatable. Mr. Jacobs
made an unreasonable decision to use Dr. Rangala as a witness for
the defense, who was also a witness for the state as an expert.
The state presented her to the court and jury as credentialed in
areas where the State of Illinois shows her to have never been
board certified or licensed in Child Abuse Pediatrics or any other
certifications related to Child Abuse. (Appendix F-7) Mr. Jacobs
failed to conduct a thorough investigation of all the states wit­
nesses/experts. Mr. Jacobs failed to obtain opinions from the most
qualified experts, while attacking the credentials and basis for
the opinions of the opposing experts.

12

REASONS FOR GRANTING THE PETITION
H18 The State of Illinois passed a law, HB5245, to prevent the
unqualified medical personnel from conducting these very special­
ized examinations. Dr. Rangala is an ER doctor, and now is unable
to conduct sexual assault exams. Only Sexual Assault Nurse Exami­
ners or SANE-A/SANE-P nurses can perform this work. Ms. J.Malmgren
is a Board Certified Forensic Sexual Assault Nurse Examiner(SANE-A)*
1119

Mr. Jacobs in Krankel hearing and other times told trial

court that Ms. Malmgren would be harmful to Mr. Carter's case and
that she had no evidence in her CV that she was qualified in evi­
dence collection. This is manifestly erroneous, apparently none of
the courts have viewed the CV of Ms. Malmgren or any of the other
Board certified defense experts of Mr. Carter. Ms Malmgren is one
of the most highly qualified Forensic Sexual Assault Nurse Exami­
ners ( SANE-A) , in the country and is experienced in evidence col­
lection, a main topic of the successive pet.(0382). This informa­
tion was attached to both post-conviction filings. Mr. Jacobs
made an unreasonable decision, not based on due diligence and in­
vestigation. To not use Ms. Malmgren and instead rely on all the
states' witnesses and state investigator, is not objectively rea­
sonable nor conforms to professional norms and standards. This
decision greatly harmed Mr. Carter's defense, as his defense ex­
perts were all favorable, possessed favorable credentials and
testimony experience. (Appendix F-5)
H20

Dr. Rangala gave no case studies to verify any of the facts

that she was quoting from when she talked about HSV-2. She gave
incorrect information that is not accepted in the scientific
community (Frye v. U.S.,293F.1013(D.C.Cir.1923), and contradicts
the C.D.C., American Academy Pediatrics,IL Department of Public
Health (Appendix F-2). When pressed on the statistics she gave,
she admitted that she did not understand them and "that statis13

REASONS FOR GRANTING THE PETITION
K20

tics was over her head." (8/10/2012,p.76) (Appendix F-7)

When the trial and appellate courts are presented with the correct,
facts from scientific communities such as the .C.D.C • / they are
unwilling to draw a parallel or false equivalency between the CDC
and Dr. Rangala, the state's witness with foundationless testimony
unknown even to the witness. (Appendix F-7) This is a manifest
error in the unreasonable application of federal law. State ten­
dered 2 Urologists/HSV-2 doctors as experts and instead, placed
Dr. Rangala before the jury. Mr. Jacobs was complicit, a denial of
Due Process and IAC. Sixth Amendment rights' Compulsory Process
Clause was denied and courts fail to see Richey and Ege errors. A
quick point on the record, the IL state courts failed to recognize
that the Statement of Facts that they relied on in each Opinion,
gotten from the State and ASAs, is fraught with errors because Mr
Jacobs allowed the state to proceed unchallenged without an adver­
sary. This is the prime reason Mr. Carter provided the appellate
court with a full accounting of the entire Statement of Facts,not
the state's biased version because Mr. Jacobs failed to take notes
or investigate case properly, IAC. IL state appellate court in
each of its Opinion's Statement of Facts as example, lists the
girls- moving—to Illinois after their~mother was killed. The~~girls
moved to Illinois in January of 2005, their mother was killed in
2006 - November 12, 2006. The girls both testified in VSI tapes,
to when she was slain, and the state again made up its own data.
The death certificate was in the five boxes of materials that
were in possession of Mr. Jacobs before he destroyed it all.
(Appendix F-1) It has again been obtained from MO Department of
Health & Senior Services Vital Statistics.
JI21

As to the Compulsory Clause and calling witnesses and the due

process, the Sixth Circuit was instructed by this Court to review
Richey v. Bradshaw and Ege v. Yukins. In Ege it was determined

14

REASONS FOR GRANTING THE PETITION
JI21

that the state's expert witness presented testimony to the

jury that lacked a foundation. This was deemed to be IAC, denial
of due process and more. (Ege v. Yukins,No.05-2078,485F.3d 364
(6thCir.2007)).

Mr. Carter made clear that he needed an expert
in HSV-2 and that the other defense experts were needed at trial.
Mr. Jacobs chose to disregard, explaining to court that he ber
lieved that he would be able to use the state's witness against
the state. (8/1/2012,p.6) Dr. Rangala gave harmful, fraudulent
testimony that she could not explain. In Ege, she was notified by
outside party that state used unscrupulous witness. This is worse,
the witness herself indicates lack of knowledge.
fl22 Richey, involves a similar set of facts, where the state
used flawed scientific methods not accepted in the fire investiga­
tion community, new evidence was presented in postconviction pro­
ceedings, evincing and supporting this conclusion, yet he was de­
nied relief. Mr. Kluge, the trial counsel for Richey, "failed to
introduce any competing scientific evidence to rebut state's find­
ings." Mr. Jacobs made these same errors for each of the state's
witnesses. Kluge sought assistance from DuBois, a non-qualified
witness as an expert with little experience, to investigate, but
the state called DuBois to testify. "Writ granted after counsel
failed to function as counsel, guaranteed by Sixth and Fourteenth
Amendments." (Richey v. Bradshaw,498 F.3d 344(6th Cir.2007)
5(23

Doug Saul, DuPage County Forensic Science Center's DNA Tech.

Leader, state witness, was not qualified to be in his position
according to his own lab's requirements (Appendix F-8). He gave
testimony outside and beyond his field and claimed expertise,and
used machinery in his lab that was in disrepair and he knew to be
> producing frequent, documented errors. Most of Mr. Saul's train­
ing was from brochures and product demonstrations (Appendix F-8).
Mr. Saul tampered with the lab equipment to try and get favorable
results for the State according to an E-mail dated 07/16/2008.

15

V

REASONS FOR GRANTING THE PETITION

1123

However, he was not successful in his endeavor as he could
not get male specific DNA from a female on vaginal swabs, and Mr.
Carter was NOT A MATCH. (Appendix F-8)

Shannon Gill, Crime Scene

Technician, state witness, lacked training and experience, as this
was her first job in this position and she was new on the job.
She made many egregious errors and committed perjury. (Appendix
F-8) Trial court denied defense counsel a chain-of-custody hear­
ing in September 2008, which was to address tainted, contaminated
improperly collected materials. (September,2008) why is it Bias
in Boyd, but not here? Confrontation Clause violation. (Appendix
Table of Authorities Cited U.S. Constitution Amendment V1). This
level of representation is below professional norms and is IAC.
Mr. Saul committed perjury in 2010's trial/mistrial under oath
and was not impeached in 2012 for either years' fraudulent testi­
mony and error ridden work product. Dr. Rangala, state witness,
testified falsely and in error while Shannon Gill, state witness,
Anthony Simpson, state witness and Ivona Kuczynsk, state witness,
committed perjury and no effort was made to impeach them. Both of
the girls testified falsely, committing perjury and giving glar­
ingly obvious, contradictory testimony, .despite approaching the
bench and discussing it in a sidebar with the court. Mr. Jacobs
still failed to go through with and perfect impeachment.
(Appendix F-8).
5(24

Ake v. Oklahoma, an indigent is entitled to expert witness.es

and tools necessary to a complete defense. Her use lacking the
lacking the necessary expertise exposes that Mr. Jacobs failed
to conduct his own background investigations on state witnesses,
failed to provide defenses' own experts to compete with and chal­
lenge states' scientific evidence and testimony rebutting states'
findings many of which were foundationless. (Ake v. Oklahoma,470
U.S. 68(1985)).
16

REASONS FOR GRANTING THE PETITION

1125

State witness Jean Kinnane, a Forensic Biologist in the

Forensic Science Center(FSC) lab, has more experience and higher
education than her supervisor, Mr. Saul. Upon her testing of S/A
kit, found no male DNA. (Appendix F-8)

State witness Anthony

Simpson, Lead Investigator for State, testified falsely in multi­
ple ways as well as declaring that he takes no notes and has con­
ducted thousands of interviews of suspects. He has a bad memory.
Mr. Simpson conducted the VSI interviews with the girls and he
claimed to see bruises that didn't exist. As an example, Dr. Rangala performed a head-to-toe exam on both girls on the same day
as Mr. Simpson conducted the VSI interviews, and reported no cuts
and no bruises on Patient Center Evaluation Form. He falsely said
he went to Sauk Village on 8/12/2008, in Illinois to secure buccal
swabs on the girls. An E-mail from Chris Sahs,Forensic Services
Unit of Naperville Police Department dated 7/29/2008 at 8:52 AM
read "Presently we do not have any DNA standards from either fe­
male victim. Both victims are now living in St. Louis, according
to one of our detectives. Our detectives will work with Tony Simp­
son to make the necessary arrangements to obtain these items from
the girls in St. Louis-." Mr. Simpson—s actions, hi-s^methods of
interrogation or interviewing, missed an extreme amount of valu­
able data in the case. (Appendix F-8)
1[26

Mr. Carter told trial court that Ms. Malmgren is the right

expert for the case, a critical part of defense who is able to
dismantle the state's case while proving his innocence. The trial
court echoed this assertion in petitions (0654) and (0382), of Mr
Carter, but disagreed with it, siding instead with Mr. Jacobs. The
Sixth Amendment's Compulsory Process Clause is for the defendant,
the ultimate decision lies with the defendant. (Appendix Table of
Authorities Cited, U.S. Constitution Amendment V1).
17

REASONS FOR GRANTING THE PETITION
fl27

Seventh Circuit and district courts both found that no other

reasonable jurist would rule that their assessment of the substan­
tial denial of a constitutional right to be debatable or wrong,
when other circuits have already, contrary to this set of rulings,
reached a different decision and outcome. The issues of IAC, due
process, equal protection and Comity are debatable, therefore,
C.O.A.s should issue to further investigate these matters.(Appen­
dix of Authorities Cited, U.S. Constitution AmendmentsV,V1,X1V).
5128

State witness, Dr. Rangala, was presented to the trial court

in the areas of Emergency Medicine, medical evaluation of pediat^
ric sexual abuse, the second of which she is not licensed or
board certified in and HSV-2 she was not licensed or board certi­
fied in this area either. This was prejudicial and highly unpro­
fessional, malpractice, which has the effect of preventing the
jury the scientific communities' case studies, clinical trials,
and accurate ethnic breakdowns on transmission rates of HSV-2.
Dr. Rangala's admission of lack of knowledge
(Appendix F-7)
fulfills requirement to present "clear and convincing evidence,"
that her use is a due process violation, prosecutorial misconduct
and IAC. (-Appendix Table of Authorities 28 U.S.C.”§ 2254(~e)(i).
5129

Many of the issues raised have a component of judicial bias

raised in them and yet the state found at the appellate level
"there to be no nexus" supporting judicial bias or abuse of dis­
cretion. The trial court attempted to adjudicate specific claims
of bias against itself rather than let a fresh set of eyes of a
peer judge decide. This action is improbable and presumptively
prejudicial by itself, but the number of issues raising judicial
bias if the record is read, shows a cumulative pattern of judi<r
cial bias and abuse of discretion. It is beyond doubt that other

18

REASONS FOR GRANTING THE PETITION

5129

reasonable jurists have found the matters that took place in

the case, similar to Richey and Ege, supra, of errant, fraudulent
misleading, or foundationless scientific evidence and testimony,
were substantial denials of constitutional rights and worthy of
further investigation, of granting writs and relief. Treatment of
case and issues comes as no surprise when considering that at the
state level there is a paucity of cases granting relief that list
judicial bias or abuse of discretion in the analysis or conclusion.

1130

In the United States v. Boyd, a clear picture is painted that

the courts in Illinois, even the federal, here the Seventh Circuit
takes positions, ",.[i]n considerable tension with decisions of
the Supreme Court of the United States." Boyd is replete with lan­
guage indicating that the trial judge was biased and should have
recused himself. "..[A]s the Third Circuit has suggested, a
trial judge well might appear unbiased at the outset
of a trial, but later events might cause a judges
impartiality to be reasonably questioned and thus make
it appropriate the 'partial cure' of reversing the
improperly obtained verdict."

__

"...[t]he judiciary was quick to correct an abuse of
power in another branch of government, after the
first trial, it also ought to be willing to correct
an .error in its own house ..."----------

(United States v. Boyd, Nos.98-2035to98-2038 and98-2060,
(7thCir.2000)).
Just as Boyd says, the bias shows in full context, yet blatant
violations of Mr. Carter's constitutional rights go uncorrected
or remedied, as was the case with Richey and Ege. State courts
were unwilling to uphold and adhere to that which they took an
oath to protect, support, and uphold, the U.S. Constitution.
(Appendix Table of Cited Authorities, U.S. Constitution, Suprem­
acy Clause, Article V1.C1.2). Due Process, Equal Protection and
Comity is virtually non-existent, evidence of the suffering ex­
treme prejudice by Mr. Carter.
19

REASONS FOR GRANTING THE PETITION

JI31

When four(4) banker boxes of evidentiary materials are de­

stroyed or are caused to be made unavailable to a defendant dur­
ing trial, it is without question a denial of due process. When
these materials are deemed to have been favorable to the accused
and are valuable for impeachment purposes.

Brady violation

Mr. Jacobs failed to contradict with opposing, readily available
evidence, witnesses, and testimony, the states unsubstantiated,
unchallenged case. Failing to provide an adequate defense, a fair
trial, necessary experts, and due process is unreasonable. This
violates the Compulsory and Comity Clauses of the Constitution
and is contrary to Ake.

(Strickland v. Washington,466 U.S. 668

(1984)); (Ake v. Oklahoma,470 U.S. 68 (1985)); (Appendix Table
of Cited Authorities, U.S. Constitution Amendment V,V1,X1V,
Article 1V Section 2), (Anderson v. Page,61 F.Supp2d770
(Appendix F-4)
(7th Cir.199§)).
5132

It is without question that destroying four(4) banker boxes

of defense exculpatory materials is some type of due process and
IAC violations. To the point, Dr. Duncan-Hively J.D., was a fa­
vorable witness that reviewed all of the case-materi~a±"sj—photo- '
graphs, lab test results and interviewed the girls and produced
a report summarizing her findings and expert opinion. Her report
was in these boxes in the custody of Mr. Jacobs. He did not call
or contact her at any time prior to or at trial, and her report
was destroyed. (Brady v. Maryland,373 U.S. 83(1963)); (Liao v.
Junious,817 F.3d 678(9th Cir.2016)); (Osborn v. Shillinger,861
F.2d 612(10th Cir.1988)).

These issues are clear and obvious

violations that other reasonable jurists have found to be sub­
stantive denials of constitutional rights. Dr. Duncan-Hively
drafted a letter confirming she produced a report. Mr. Jacobs
said the report doesn't exist. (Appendix F-5)
20

REASONS FOR GRANTING THE PETITION
fl33

Mr. Jacobs exhibited a conflictual relationship toward his

client, Mr. Carter, and his defense. The question remains as to
why some circuits recognize this behavior but not all circuits?
(Osborn v. Shillinger,861 F.2d 612(10th Cir.1988)). Mr. Jacobs
believed a lot of witnesses Mr. Carter wanted called were irrele­
vant and unimportant. He was disregarding intentions of defendant
deeming them to be character witnesses to well treatment. This is
false, they were to rebut false, unsupported testimony and argu­
ment of state that was subject of D.A. issue raised. Mr. Jacobs
had a Character Reference List dated June 13, 2011 for over a
year and an opportunity to either write, call or e-mail them to
ascertain their relevance, but he did not. (Appendix E Trial
court P.C. Opinion p.2).
Compulsory Clause of the United States Constitution does not de­
volve onto the attorney, it is the citizen's. Appellate counsel
not raising any of these issues is IAAC, contrary to the trial
and appellate court's opinions. Illinois Supreme Court rule
states, "(t]hat issues raised are not frivolous simply because
appellate counsel feels that they will not prevail in court, de­
cision must be based upon due diligence and investigation."
(Appendix Table of Authorities Cited U.S. Constitution Amendment
V1 ); (IL S.Ct.Rules of Ethics Article V111 Rule 3.1,[1][2]). The
trial court found and the appellate court affirmed the opposite
of the Illinois Supreme Court's rules. This is an arbitrary and
unreasonable application of the laws in a state and federal context. Failure to apply or adhere to its own rules, as in Boyd
supra, is denial of Due Process and Equal Protection. (Appendix
Table of Authorities Cited U.S. Constitution Amendment V,V1,X1V).
21

REASONS FOR GRANTING THE PETITION
fl34

Ms. Malmgren, board certified SANE-A and a Public Health

Nurse, is well qualified to address Fetal Alcohol Syndrome(FAS).
The Care Center Patient Evaluation Form filled out by Dr. Rangala
has FAS information on it; the girls
ing pregnancies. (Appendix F-6)

mother abused alcohol dur-

Edward Hospital, Dr. Rangala's

place of employment, is the sole hospital in Illinois that facili­
tates a FAS Parent Support Group. (Appendix F-6)

FAS is a con-

dition that causes behavior problems, memory, hearing, attention
span, lack of focus, poor reasoning and judgment, problems in so­
cial skills. Other problems are Central Nervous System (CNS)brain
damage with abilities to learn and communicate, as well as below
average height and weight. They may not understand consequences
of their actions, tendency to testify falsely, commit perjury,
give inconsistent statements and other emotional outbursts. This
condition needs to be further explored, as it fits with their be­
havior at home as well as school and trial. (Appendix F-6)
Both FAS and HSV-2 are medical and scientific in nature. Expert
defense witnesses were necessary and available, yet Mr. Jacobs
relied on states

witnesses failing to obtain an opinion from the

better qualified defense experts who were ready to attack and
challenge the credentials and basis for the opinions of the op­
posing state experts. The girls both gave unquestionably uncorrob­
orated, inconsistent, and false statements of both significant
and seemingly trivial matters in trial testimony. FAS has a strong
correlation to behavior of this type. (Appendix F-6)
fl35

Boyd lays out that these courts can't and don't see their

own bias, they also don't see the C.D.C.'s data, SANEs and Clini­
cal Psychologists as accepted in their own scientific communities,
why are they finding or ruling contrary to the other circuits?
22

REASONS FOR GRANTING THE PETITION
fl35

Had the jury heard the CDC's transmission rates and statis­

tics compared to Dr. Rangala's foundationless, fraudulent sta­
tistics and testimony; heard from Ms. Malmgren, a Board certified
SANE-A, to present data, testimony, and challenge multiple state
witnesses; and heard from Dr. Duncan on interview techniques,
questioning/suggestibility, credibility, her interviews and find­
ings; and these defense experts be allowed to challenge the
states' case (their credentials, work product, performance and
testimony), there is a reasonable probability that the outcome of
the trial would have been an acquittal,

(Strickland v. Washing-

ton, 466 U.S. 668(1984);(Boyd ante)).
State and federal courts have failed to take notice of evidence
presented of state agents and witnesses at trial to be faulty,
fraudulent and error ridden, without the benefit of an eviden­
tiary hearing. This correct information is being disregarded as
"just another opinion" and the "jury has already heard testimony
on that subject."

(Appendix E-4,p.2-3;D-1,p.9)

Why are the courts unwilling to come to grips with the fact that
evidence that the jury was presented with was incorrect informa­
tion and that the correct information that is accepted in its
scientific community is presented here, and still the jury hasn't
seen it? (Frye v. U.S.,293 F.1013(D.C. Cir.1923).

This is an un-

reasonable and contrary application of federal law. Jurists in
other circuits see and reach different rulings on these issues.
TT36

Liao and Larson both involve IAC where in Liao, trial coun- .

sel failed to secure medical evidence and testimony and call wit­
nesses, and Larson, trial counsel was ineffective in failing to
call multiple witnesses. Failing to call experts and other wit23

REASONS FOR GRANTING THE PETITION
fl36 nesses, to secure and present medical evidence and testimony
has been found to be debatable amongst jurists of reason as a val­
id constitutional right and other circuits have ruled differently
than the Seventh Circuit and District courts of Illinois, a C.O.A
should issue. (Liao v. Junious,817 F.3d 678(9th Cir.2016));
(Larson v. Soto,742 F.3d 1083(9th Cir.2013)).

Mr. Jacobs failed

to subpoena medical evidence, or Rebecca Nelson's doctor, or some
qualified personnel from her medical provider to present to jury
her positive HSV-2 test results predating when family moved up
to Illinois, showing common positive HSV-2 results between Mr.
Carter and Ms. Nelson who lived together as a couple. Ms. Nelson
was asked by Mr. Jacobs to get proof of her STD(HSV-2) documenta­
tion and it was not used during trial.

Despite ASA LaMonica fil­

ing a motion in limine on Ms. Nelson giving testimony herself on
HSV-2, it doesn't void the Compulsory Clause of the V1 Amendment,
nor does it prevent her records and medical provider from testi­
fying. Any reasonable juror hearing a case involving alleged sexu­
al contact and the accused has an incurable STD, HSV-2, and there
is a relationship partner, would want to know the STD status of
the partner. (Appendix F-9, Table of Cited Authorities, U.S. Con­
stitution Amendment V1,Compulsory Clause).
Trial strategy in destroying favorable medical evidence and other
evidence and sabotaging one's client? (Osborn v. Shillinger,861
F.2d 612(1Oth Cir.1988)).

Why does the Seventh and District

courts see this issue of IAC and due process and Compulsory Pro­
cess denials of rights as not warranting relief and meritless,
when other circuits have granted relief on this, finding it debat­
able? (Appendix F-9) (Appendix Table of Cited Authorities, U.S.
Constitution Amendment V,V1,X1V; Article 1V,Section 2; Article V1
24

REASONS FOR GRANTING THE PETITION
J[36

Clause 2).

The courts are subject to the dictates of the

U.S. Constitution and are bound to uphold it.

1137

Ivona Kuczynsk, Nursing Director of DuPage County Jail, was

put on the stand as a rebuttal witness, and committed perjury in
so doing. State suborned perjury through her in launching article
of impeachment against Mr. Carter for not sharing medical infor­
mation with DuPage County Jail, an agent of the state. This infor­
mation was given to defense/private counsel, Ms. Melanie Pettway.
Ms. Kuczynsk testified that Mr. Carter complained of and had
symptoms of Syphilis, despite testing negative for all STDs at
Central DuPage Hospital on October 29, 2010 in Winfield,IL, in­
cluding Syphilis and positive only for HSV-2 and never haying
been treated for Syphilis. ASA presented in court a medical care
request form, where Mr. Carter was having an allergic reaction to
pink liquid soap used in county jail manifesting as blisters on
palms. The remedy was white bar soap. After jury was made aware
that Mr. Carter was still in jail and not given bail, they were
told Mr. Carter was having sex in jail and contracted Syphilis.
None of this was true and had a prejudicial and cumulative effect
negatively impacting Mr. Carter. State penalized Mr. Carter and
engaged in prosecutorial misconduct for his applying HIPAA’s
privacy protections to his own information. Use of perjury to
assist in obtaining a conviction, a denial of Due Process and a
fair trial. (White v. Ragan,324 U.S. 760(1945)); (Napue v. Illiois,360 U.S. 264(1959)); (Appendix F-8) (Appendix Table of Cited
Authorities, U.S. Constitution Amendment V,V1,X1V.).
For suspected or confirmed Syphilis, a staff member of IL Public
Health Department was to visit Mr. Carter, NO ONE CAME. Mr. Car­
ter made repeated calls to secure medical report, NO RESPONSE.
What possible legitimate purpose was served by this witness out­
side of fraudulent impeachment and false information to the jury?

25

REASONS FOR GRANTING THE PETITION
1138

The second comprehensive question presented to this Court is

one of several significant matters. We appear to be in a time of
growing lack of respect and honor for the U.S. Constitution among
citizens and government officials alike. Respecting human dignity
and seeking to understand another's perspective appear to be erod­
ing at an alarming rate. Parenting and raising a family is not a
part of the Constitution, it is a God-given responsibility given
to the human race by God. Discipline means being consistent and
firm but also kind and fair. Chores are not crimes in Illinois,
yet Mr. Carter was on trial and demonized for his discipline.
Chores were assigned to the girls who came from a place of no adult supervision, no chores, and no family rules. They envisioned
moving to a fantasyland, but it was a structured environment with
after-school snack, homework, dinner and then television. When
they realized situation they became disgruntled and began to act
up, motivated to go back to St. Louis. The state presented testi­
mony claiming the girls were starved, abused, and beaten, none of
which was true, according to evidence. Investigator Simpson who
takes no notes and has a memory problem, testified to seeing on
CC, bruises at police station but couldn't remember information.
There is. no evidence, photos or record on Care Center Patient(AppF-8)
Evaluation form, which was same day as VSI interviews of Mr. Simp­
son with the girls. No photos were taken and they both had digit­
al cameras. These are highly inflammatory false allegations, ahd
these actions were highly prejudicial but unimpeached. Perjury,
used to inflame jury is a denial of due process. IAC, due process
perjury, failure to impeach.

(Appendix Table of Cited Authorities,

U.S. Constitution Amendment V,V1,X1V). Earlier at a hearing (5/15
2009,p.14), Mr. Simpson stated that CC reported some marks on her
body but he could not recall where. At the trial (8/14/2012,p.35)
Mr. Simpson reported "she had told us she had bruises during the
26

REASONS FOR GRANTING THE PETITION

fl38

interview"(May 1, 2008), but he did not state that he saw

them. Personal bias and prejudice caused obvious constitutional
violations to go unseen or be disregarded by Circuit and District
courts, where other reasonable jurists have reached a different
outcome finding IAC, fraudulent reports, baseless testimony, and
perjury of state agents to be debatable issues. (Richey v. Brad­
shaw,498 F.3d 344(6th Cir.2007)); (Ege v. Yukins,No. 05-2078
(6th Cir.2007)); (Napue v. Illinois,360 U.S. 264(1959)).
5139

Is there evidence that all that has transpired is an anom­

aly, or that other jurors and reasonable jurists would likely
come to a different conclusion than that of the Seventh Circuit
and District courts?

Mr. Jacobs on 1 August,2012,p.6, stated

that he consulted with Dr. Rangala and decided to use her to aid
his client and hurt the state. It had the exact opposite effect.
Why did he not discover that she had no basis for her testimony,
didn't understand statistics, HSV-2 transmission data and spe­
cific mechanisms, knew no cited studies, no clinical trials, her
rates were incorrect, and she was completely unaware of asympto­
matic transmission that viruses have, yet was called to present
these very things? (Appendix F-7)

Contrary to what Dr. Rangala

testified to, the rate of transmission is never zero, and most
infections occur when there are no symptoms. (Appendix F-2)
Richey and Ege, the lack of knowledge was later discovered, here,
in open court the head of the trial didn't call the state's mis­
conduct and defense counsel didn't call his own lapse. How would
he expose his own failing?
fl40 Had Mr. Jacobs impeached Dr. Rangala, he would have also
impeached his own conduct in failing to investigate the states'
witnesses in the adversarial system of trial, instead, he improp­
erly chose to rely on states witnesses. He chose silence and
27

Sf/jlS-tT/
1
2
3
4
5
6
7
8
9
10
11
12
13

i

!
:

14
15
16
17
18
19
20

MR. JACOBS:

That's fine

Judge.

I have no

21

problems with that at all.

22

mention that when we were talking before, I've talked

23

to Dr. Rangala^.

24

Judge,
actually after
the State -mentioned
possibly
-----—........................................................
- — - . .
v-;-*.-** —
*

Judge, I also wanted to

I've consulted with Dr. Rangala and,

5

?f//zcs?z.
1

using Dr.

Rangala as they brought this motion up about

2

two months ago

3

benefit
.
---^

4

making is to use Dr. Rangala

5

talk
about
herpes, in our case<■-—rrrrrrssrirrrr--r.
in chief.
.
ni-ifi-it-r--T-[ Aasvrj...• -■

6

that would in fact help our case in various different

7

ways using tjie St a tel s doctor against them.

I believe it would work in my client's

That's another strategic decision that we are
the treating physician to

I believe that

I think

■‘t**;*—

8

it's a strategic decision as well.

9

that on the record as well.
MR. DEMOPOULOS:

10
11
12
13
14
15
16
17
18
19
20
21
22
23
24

i

I wanted to put

Thank you, your Honor.

6

REASONS FOR GRANTING THE PETITION

1140

sacrificed his client's life in order to save embarrassment

in his professional career. Mr. Carter remembers being inter­
viewed and Investigator Simpson had a binder and took notes. The
trial judge, hearing claims of bias against himself, denies bias
but will not order police to turn over video of Investigator Simp­
son taking notes on 1 May, 2008. Institutional bias harming the
citizen, inflicting pain, to save the system and police embarrassment and loss of image,
their own conduct ever fair?

Is a judge sitting in judgment of
(Appendix Table of Cited Authori­

ties U.S. Constitution Amendment V,V1,X1V, Article V1,Clause 11).
IAC, Due Process, Equal Protection, Supremacy Clause.
Bias in this case exceeds that of Boyd, state appellate court
sees "no nexus" to claims of bias and conduct of .court despite 34,
of the 55 claims relate to an improper action of the trial court.
(Habeas Petition Attached 89-94, Abuse of Discretion and Judicial
Bias categories). Contrary to the Federal Circuit and District
court opinions, the District court named substantial constitution­
al rights violations in 27 August, 2019, opinion.

(Appendix B,

p.1 of3), (United States v. Boyd,98-2035 to98-2038and 98-2060(7th
Cir.2000)).
«41

Officials are seldom quick to admit their errors, if at all.

How many Landmark cases are of lower courts correcting their own
errors? The Constitution should not be where its protections and
guarantees are only available to those in powerful positions or
the wealthy. Sadly, that is a court functioning as a totalitarian
regime, a law unto itself ignoring the Supremacy Clause. This
case amounts to an egregious misuse of position and authority,
while the defendant and jury were kept in the dark. At the time
the girls were motivated to go back to St. Louis, and testified
as such, they made up terrible, false allegations that have been
28

REASONS FOR GRANTING THE PETITION
fl41

proven false, after one coached the other. Mr. Carter's son

is an alibi eyewitness that was not allowed to testify and refute
the girls' testimony as to his whereabouts at the residence,which
render allegations impossible, removing elements of place, means
and opportunity.

IAC, favorable witness and Compulsory Clause.

(Appendix Table of Cited Authorities, U.S. Constitution Amendment
1,V,V1,X1V). Both sides must be allowed the opportunity to speak
for a trial to have legitimacy.
fl42

More than 90% of cases in DuPage County end in plea bargains

a strong possibility that lack of trial experience played a part.
However, this case has the distinct feel of a vindictive, politi­
cal prosecution based upon extreme popular prejudices while ignor
ing law, science, and irrefutable facts. How can a DNA Tech Lead­
er commit perjury, testify contrary to his test results,and still
be considered credible, go unimpeached and be used by defense
counsel? Why is such conduct IAC in Richey, Ege, Buck, Andrus and
Liao but not here? Why is the presentation of correct more favor­
able testimony prove IAC and accord with necessary defense mate­
rials, and due process but not here? (Strickland v. Washington,
466 U.S.668(1984); (Richey v. Bradshaw,498 F.3d344(6th Cir.2007);
(Ege v. Yukins,No. 05~2078(6th Cir.2007); (Buck v. Davis,580 U.S.
___ 2017); (Andrus v. Texas,590 U.S.
(2020); (Liao v. Junious,817
F.3d 678(9th Cir.2016)).

No one should ever be subjected to a

trial such as this, the Constitution is meant to protect from
such abuses. (Appendix Table of Cited Authorities, U.S. Constitu­
tion Amendments 1,V,V1,X1V,Article 1V,Section2,Clausel),IAC,Due
Process, Equal Protection Clause, Compulsory Process Clause,
Comity Clause.
fl43

There has been no full, fair, and complete review of the

case and issues raised by Mr. Carter. There has been a failure to
investigate an alibi defense, investigate state witnesses, enlist

29

REASONS FOR GRANTING THE PETITION

5143

defense experts, contact character references witnesses from

list dated June 13, 2011 and thoroughly review all evidence in
the case - Rule 417, 2010 transcripts, banker boxes and DCP pack­
et. State and federal law both require "issues raised to be taken
as true unless completely contradicted by the record." (Petro-celli v. Angelone,248 F.3d 877,at 855(9th Cir.2001)). Mr.Carter's
actual innocence raised more than 10 times has never been heard
or investigated, instead, through prejudice at every turn he has
been denied the most basic due process.
Who is Mr. Carter, why should he be heard?
J[44

Mr. Carter grew up in a family with conservative leaning,mid-

western values, and male relatives in the field of engineering as
likewise for Mr. Carter. Smoking, drinking, and drug use is not
compatible with Mr. Carter's lifestyle and professional career,
where his behavior may cost a crew member life or limb.
5145

As a Christian, to live without a commitment was against his

moral principles, in spite of the girls' mother's wishes. Moving
to Illinois provided a clean break from an unhealthy relationship
and opened up possibilities for professional growth unavailable
to Mr. Carter in St. Louis. Union membership was made available
in Illinois offering plenty of job opportunities, training facili­
ties, and work hours with overtime, though seasonal. This made
the typical day consist of more than half the day away from home.
With wearing apparel laid out, Mr. Carter would rise at 4:30am.,
wake the girls, where the older would make breakfast for all and
a protein shake for his breakfast while the younger would wash
leftover dinner dishes and make her lunch. Grandma Nofles would
supervise while Mr. Carter showered and dressed. Leaving at 5:00am
all were saluted on the way out. Mr. Carter was first out and the
last one ih, Grandma Nofles was last out and first in daily. Mr.

30

REASONS FOR GRANTING THE PETITION
J[45

Carter's normal return time was 7:00pm. A household schedule

was necessary for guidance and efficiency.

JI46

Seven o'clock; pm means respite of one hour at the gym on the

way home, if the day is 85 hours plus 3 hours of drivetime. On
days of 1O5 hours plus drivetime with the gym, Mr. Carter comes
into the home around 9:30pm, just enough time after eating to
check homework and go to sleep. On 12^ hour days, there is no gym,
by the time Mr. Carter would arrive home there is only time to
maybe eat and go to sleep. The girls had finished homework, eaten
dinner, watched tv and were asleep.

H47

From six to nine months is the average work season with lay­

offs according to weather. During layoff, employees were required
to update their skills at a training worksite. Everyone shared in
the household responsibilities. The girls' main chores were clean­
ing their room and the main bathroom. The younger's specific
chore was washing the dishes. The older's specific chore was the
laundry. She washed Mr. Carter's clothes from his clothes pile in
his bedroom on the floor along with their clothes from their two
hampers in their bedroom. Mr. Carter's son would take out the
trash and haul firewood, when present. Mr. Carter cleaned his bed­
room/master bath, and outside tasks in the garage. Grandma Nofles
would clean her room, do her laundry separately, and prepare fami­
ly meals. Mr. Carter's son would spend every weekend during season
and was full-time in home during layoff, through shared custody.
48

The State in opening/closing remarks told jury no one had

access to the girls, that they never left the house, and this was
not true. Boys walked girls home, TC went into boys houses. Dur­
ing the week, after homework was done, karate practice. Weekends,
31

REASONS FOR GRANTING THE PETITION
fl48

after chores were done the girls left the home at noon on

their own free time and returned at dark, or a little after. On
Sundays was church and programs, then dinner with the Smith's,
TC's classmate's family, after a movie. Mr. Carter joined them
later at the Smith's home. Mr. Jacobs failed to impeach the State
in fact, he backed off of witnesses. (10 August,2012,trial,P.94).
(Appendix F-4)
fl49

Female company would from time to time come on weekend when

everyone was away. Casual relationships were shielded from the
children. Mr. Carter's son who shared master bedroom/bath was
always present at trial but was not interviewed nor allowed to
testify. The girls testified about him and he wasn't allowed to
rebut or respond. The girls falsely alleged these incidents to
occur in Mr. Carter's room. All of the bedding and linen were col­
lected and these items were all tested by State at FSC and pri­
vate Atty. Lex Johnson tested S/A kit at Edward Hospital. No se­
men found in S/A kit or any items in bathroom(master). In 2010
trial, Mr. Saul under oath, testified that he could not say that
this DNA on King Size bedsheet(8A), wasn't the girls.

In 2012

trial, Mr. Saul's report (Lab Report 08-01166-3), indicated a mix­
ture of DNA male and female and "at least one DNA type from the
minor DNA donor(s) to Exhibit 8A1b is not found in the DNA pro­
files of CC and TC, and they would be excluded as donors of that
DNA type." Mr. Jacobs and appellate counsel both ineffective on
this issue resulting in unfair trial and appeal. (Appendix Table
of Cited Authorities, U.S. Constitutional Amendment V,V1,X1V),
Seventh Circuit and District courts' rulings arbitrary, numerous
circuits could and have ruled differently issuing C.O.A., grant­
ing writ.
32

94

1

f

2

MR. DEMOPOULOS:

clarification here of what we are qoinq to do.

3
4

What we had talked about is calling in the
case i n chi ef_ and giving her exp! anat i on .

5
6

I just want a little

This is a really unusual situation, and I
apologize

7

THE COURT:

You know, you went into it, so now

8

it's cross examination, which you went into.

9

unfortunate.

10

MR. JACOBS:

Most of the things, I'm not going to

cover.

13
14

He's going to cover the same thing, and

he's going to ask it on direct, so I don't how --

11
12

I expect now that my direct examination will
be less than five minutes.

15

THE COURT:

16

MR. DEMOPOULOS:

Just let him do it on cross.

17

I don't want it to be

18

position .

19
20
21

It's

THE COURT:

Legally, I mean, I did it for
I don't think it's a weak

I know.

I'm not saying that,

Now

you don't want him to lead into this.
MR. DEMOPOULOS:

I_ just want clarification then.

22

Is he going to get into all of this and then recall her

23

as his witness and then get into all of this again?

24

Why don't we just

REASONS FOR GRANTING THE PETITION

5150

In People v. Cruz, Rolando Cruz through three trials facing

death penalty, proclaiming his innocence, was ignored by the same
trial judge. Evidence already existed indicating Mr. Cruz's inno­
cence and Brian Dugan was admitting guilt. There is a history of
bias. Many factors are causing stigma: the type of case, the al­
leged charges, and girls' mother's incorrect date of death and
their arrival in Illinois as well as only one version of the case#
This has caused this case to receive the most unfair, unconstitu­
tional treatment. All of the issues presented by Mr. Carter are
meritorious and substantiated with verifiable evidence and proof
of innocence. The state has declared that if one is charged with
this set of allegations, that the U.S. Constitution does not apr
ply to them and they owe no due process.
fair trial

Can Mr. Carter have a

investigative alibi defense, character witnesses re-

viewed and contacted, defense experts enlisted, a review of all
evidence, a complete investigation-of the issues,an evidentiary
hearing on the merits?

A C.O.A.(s) issuance? Attorney Pettway

had no extensive criminal trial experience, can Mr. Carter have a
trial with a conflict free, experienced criminal trial attorney?
Mr. Carter's claims have never been refuted, only ignored.

STRICKLAND v. WASHINGTON
466 U.S. 668,684-85(1984)
Defense Counsel Brian Jacobs was recommended by his supervisor
while he was on vacation. Upon his return, all of the evidence
was received in five(5) banker boxes from a prior private attor­
ney over some months. Hearings were held and Mr. Jacobs some­
times met with defendant and sometimes not. Mr. Carter was not
kept informed of case status. Mr. Jacobs wanted Mr. Carter to do
a plea deal, which he refused. Mr. Jacobs met with Dr. Rangala,

33

REASONS FOR GRANTING THE PETITION
STRICKLAND V. WASHINGTON
466 U.S. 668,684-85(1984)
a state witness for two months and Defendant only found out at
pre-trial hearing. She was recommended by the State. Defendant's
mother talked briefly after hearings to Mr. Jacobs where he com­
plained of his caseload. Two defense experts were retained by
family as State of Illinois was broke. He was told of important
information in the boxes and he stated "no Table of Contents to
find information." Character References List sent directly to him
in June 2011, for trial in August 2012.
INACTION OF TRIAL DEFENSE COUNSEL - 1)failure to perform an inves­
tigation, 2)failure to investigate an alibi defense, 3)failure to
investigate prosecution witnesses, 4)failure to enlist experts,
5)didn't contact any witnesses, 6)provided no evidence, 7)failure
to impeach state witnesses with substantial and multiple inconsis­
tencies -- nothing to challenge the state's case,

Mr. Jacobs re-

lied solely on records turned overby the prosecution.
FAILURE TO INVESTIGATE PROSECUTION WITNESSES
Shannon Gill, Evidence Collection Tech.
Collected contaminated, commingled, soiled and wet clothing and
linen. She did not know FSC Rules and placed 16 items in one bag,
6 items in one bag, and King size bed linen(sheets, comforter,
and King size pillows/pillowcases plus bath towels) in a plastic
bag. Stated twice to State that male items were not mixed with
girls clothing, then changed to Yes there were mixed items to the
Public Defender when repeatedly asking questions, Stated no wet
items to State, no to Public Defender, then finally Yes to State.
When asked about assistance with collection, no to Private Attor­
ney but Yes to State three times.

SHE WAS NOT IMPEACHED.

34

REASONS FOR GRANTING THE PETITION
STRICKLAND v. WASHINGTON
466 U.S. 668,684-85(1984)
FAILURE TO INVESTIGATE PROSECUTION WITNESSES
Anthony Simpson, Lead Investigator
Co-workers concerned about certain specific instances of his memo­
ry, does not take any notes. Makes statements and no evidence of
proof. Stated he went to Sauk Village,IL to get buccal swabs but
E-MAIL dated July 29, 2008 stated girls in St. Louis. Stated CC
had marks then bruises but no proof. Dr. Rangala did a head-totoe exam on same day and not state this in testimony or on CC's
Care Center Patient Eval form. INCONSISTENT TESTIMONY-NOT IM­
PEACHED BY PUBLIC DEFENDER.
Ivona Kuczynsk, Nursing Director
Stated Defendant complained of a Syphilis infection on 4/13/2011.
STD testing results from Central DuPage Hospital on 10/29/2010 stated No to Syphilia. Syphilis is a Reportable Disease and no
one came from local health department to see Mr. Carter. False
information of any STD is guilty of Class A misdemeanor 410 ILCS.
NOT IMPEACHED BY PUBLIC DEFENDER.
Doug Saul, DNA Tech. Leader
Not qualified as Leader - B.S.degree not Master's, as required.
No expertise in trace chemistry, wipes, smear patterns.
Did not know Sperm Scale Interpretation.
Tampered with evidence (vaginal swabs of TC), to try to get re­
sults for State (E-mail dated 7/16/2008).
Twice lied about Exhibit 8A(bed sheet). In 2010 - don't know gen­
der of DNA mixture. In 2012 - can't say it's not them. LAB RE­
PORT 08-01166-03 states "No female DNA was observed in this semen
stain. One DNA type from the minor DNA donor(s) is not found in
the DNA profiles of CC or TC and they would be excluded."
Malfunctioning of lab equipment and Memo from Lab Director dated
1/8/2013 of lab equipment limitations.
HE WAS NOT IMPEACHED.
35

REASONS FOR GRANTING THE PETITION
STRICKLAND v. WASHINGTON
466 U.S. 668,684-85(1984)
FAILURE TO INVESTIGATE PROSECUTION WITNESSES
Dr. Sangita Rangala, Licensed Physician
Attending physician in ER Department at Edward Hospital.
Tendered in trial as expert in Emergency Medicine and medical
evaluation of pediatric sexual abuse.
IL Department of Financial & Professional Registration (IDFPR)
only lists Licensed Physician.
2018 Directory of IL Healthcare Providers for Child Abuse and
Neglect Investigations, Dr. Rangala not listed as Board Certi­
fied in Child Abuse Pediatrics or any other Certifications Re­
lated to Child Abuse.
For Mr. Carter, can't say penis for transection^ as no specific
pattern injury in this case.
Can't say if it happened a hundred hours before or 5 years.
Can't say when they took place or what caused them.
Dr. Rangala took Patient Evaluation of CC and did not know about
prenatal alcohol abuse.
P.idn' f know about asymptomatic , Fetal Alcohol Syndrome (F.A.S.),
remission, transmission rates, viral shedding.
Cited no studies, clinical trials, journal articles or studies of
adolescents with STD.
SHE WAS NOT IMPEACHED.
CC and TC, alleged victims
Both actively involved with boys - boys walking them home from
school, weekend and boys on playground, boys at shopping mall
near karate school during week, CC-boy at Hill Middle (Aquan),
boys at church, missing from SundaySchool. TC-going into boys'
houses(letter to family dated April 2007), making arrangements to
meet Michael early in AM and late for school.
Conflicting stories of girls throughout trial.

TC- didn't know
age/grade, didn t know when she moved, didn't know if adults
came to apartment, couldn't remember most things and had two to
four versions of everything and kept changing her story. THEY
WERE NOT IMPEACHED.
36

REASONS FOR GRANTING THE PETITION
STRICKLAND v. WASHINGTON
466 U.S. 668,684-85(1984)
These following points alone establish IAC under the Strickland
standard of Cause:
1. NO WITNESSES- Counsel stating to defendant and judge that he
believed character reference list given to him by USPS in 6/2011
for trial in 8/2012 was irrelevant and no one was contacted and
interviewed. The jury was unable to see a respondent who was re­
sponsible, nonviolent, devoted to his family and active in the
church.
2. NO EVIDENCE- A fair trial is one in which evidence subject to
adversarial testing is presented. Counsel's decision not to pre­
sent evidence meant that.defendant was unable to refute all of
the multiple inconsistencies in the states' witnesses' testimony;
and failure to impeach critical, substantial inconsistencies.AAD
Wimmer noted on 2/3/2014 "that evidence in possession of his at­
torney .. was not brought before the court or entered into evi­
dence (R.2878-79.)
3. NO INVESTIGATION OF PROSECUTION WITNESSES (as earlier stated).
4. FAILED TO INVESTIGATE ALIBI DEFENSE- this would have shown the
defendant's work schedule for day in question (May 1, 2008), and
the prior days, weeks and months in Quarterly Status Report, his
co-workers at the job site, and Dispatcher would have testified
to his whereabouts on May 1, 2008.
5. FAILURE TO IMPEACH WITH REPEATED, SUBSTANTIAL INCONSISTENCIES
Evidence Collection Tech, regarding cross-contaminated clothing,
commingled, with lack of protocol and Lab. not aware, denying wet
items, mixed clothing and assistance. Lead Investigator lying
about going to Sauk Village,IL when girls were in St. Louis (Email), seeing marks then bruises and there were none. Nursing
Director stating a Reportable Disease of defendant for the State's
benefit and a copy of testing report in record showing no Syphi­
lis . DNA Lab Tech, tampering with TC's vaginal swab, lying two
times about evidence on bedsheet, not qualified for his position.
Licensed Physician stating credentials that she does not possess
according to licensing boards and unable to cite case studies.
37

REASONS FOR GRANTING THE PETITION
STRICKLAND v. WASHINGTON
466 U.S. 668,684-85(1984)
Finally, the establishment of Prejudice will be presented in this
case as follows:
1. Failing to call a medical expert to challenge the state's medi­
cal evidence. PREJUDICE ESTABLISHED because a defense expert
could have testified, contrary to the state's argument.
2. Failing to pursue an alibi defense.

PREJUDICE ESTABLISHED as
Counsel did not investigate or even talk to the alibi witnesses.
Dispatcher and co-workers could have provided testimony and docu­
mentation that the defendant was working on a job site.
3. Failing to investigate and challenge the qualifications and
testimony of the experts (S.Gill, D.Saul, Dr. Rangala). PREJUDICE
ESTABLISHED as if trial counsel had performed adequately, the
state's case, as well as the credibility of the state's experts,
would have been severely undermined.
4. Counsel ineffective for failing to impeach with a prior inconsistent statement. PREJUDICE ESTABLISHED as witnesses of State's
credibility "would have been severely crippled by prior inconsis­
tent statement(s).
5. The Sixth and Fourteenth Amendments guarantee a person accused
of a crime the right to the aid of a lawyer in preparing and pre­
senting his defense. If there are no witnesses because Counsel re fuses to contact or interview them or present any evidence that
is in his possession, is the lawyer aiding him in his defense?
6. The Sixth Amendment imposes on counsel a duty to investigate.
Counsel failed to perform any investigation and relied solely on
records turned overby the prosecution, is this PREJUDICE or con­
stitutionally defective representation?

38

r4

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted.

, (h C0L
Date:

nuccry-Slj DQ2,1

m

